September 22, 2009

WILLIAM T. GRAVES, JR.
MANAGER NETWORK DISTRIBUTION OPERATIONS
WASHINGTON NETWORK DISTRIBUTION CENTER

SUBJECT: Audit Report – Powered Industrial Vehicle Management System at the
         Washington Network Distribution Center
         (Report Number NO-AR-09-010)

This report presents the results of our audit of the Powered Industrial Vehicle
Management System (PIVMS)1 at the Washington Network Distribution Center (NDC),2
located in the Capitol Metro Area (Project Number 09XG025NO000). The Vice
President, Network Operations, requested this audit. Our objectives were to determine
whether the PIVMS was functioning as intended and producing efficiency
improvements. See Appendix A for additional information about this audit.

Conclusion

Management at the Washington NDC did not use the PIVMS because the system had
been intentionally damaged, causing it to be non-functional and in need of extensive
repair or even replacement. Therefore, the Postal Service did not realize the efficiency
improvements and benefits from the PIVMS. In addition, we concluded the Washington
NDC reduced workhours in tow and forklift operations, but did not implement internal
controls over vehicle safety, security, and inventory.

Damage to the PIVMS at the Washington NDC

In July of 2006, the Postal Service installed PIVMS at a cost of $804,817 at the
Washington NDC/Southern Maryland Processing and Distribution Center (P&DC),
which share the same facility and PIVMS. Management stated the damage to the
PIVMS began several months after installation. Management believed that employees
either disconnected or completely removed the Vehicle Asset Communicator (VAC)
devices from the majority of the powered industrial vehicles (PIV) inventory. There was
also extensive damage to the facility from powered industrial equipment. See
illustrations of the damage in Appendix B.


1
  The PIVMS consists of intelligent wireless devices installed on PIVs and client-server software for access control,
utilization analysis, real-time location tracking, and many other functions.
2
  The Washington NDC was once known as the Washington Bulk Mail Center (BMC). Effective August 1, 2009, all
BMCs were renamed Network Distribution Centers.
Powered Industrial Vehicle Management System                                  NO-AR-09-010
 at the Washington Network Distribution Center


The damage to the PIVMS and to the facility at the Washington NDC occurred because
management did not effectively monitor employees to prevent damage. Because
management did not use the PIVMS, the Postal Service did not realize the efficiency
improvements and benefits of the system. For example, the PIVMS can help reduce
inventory and can measure vehicle utilization attributes (such as speed, distance
traveled, and idle time) to assess productivity.

We recommend the Manager, Network Distributions Operations, Washington Network
Distribution Center:

1. Provide closer supervision over powered vehicle operations to ensure that damage
   to powered equipment vehicles and the facility does not occur and consider repairing
   or reinstalling the Powered Industrial Vehicle Management System.

Other Matters – Powered Vehicle Equipment Internal Controls

To management’s credit, they reduced workhours in tow and forklift operations without
using the PIVMS. From FY 2006 to 2008, workhours used in tow and forklift operations
decreased over 10 percent and overtime in these operations decreased by over 53
percent. We also compared the Washington NDC to the other 20 NDCs and found that
it reduced more workhours and overtime than the average NDC. See Appendix B for
our detailed analysis of this issue.

However, internal controls over vehicle safety, security and inventory were not in place
because management did not implement compensating internal controls when the
PIVMS was no longer functioning. Specifically:

    •   Equipment operators did not complete Occupational Safety and Health
        Administration (OSHA) safety checklists as required, resulting in management
        not identifying unsafe vehicles.

    •   Management did not control access to vehicles and unlicensed drivers were
        operating vehicles.

    •   Management did not assign accountability for vehicle impacts, which would have
        assisted in identifying the cause of the extensive damage to the building.

    •   Management did not monitor vehicle battery usage; therefore, batteries were not
        adequately maintained, resulting in shortages.

    •   The facility did not adequately maintain vehicles.

Consequently, the safety and security of employees and Postal Service property was at
risk. See Appendix B for our detailed analysis of this issue.




                                                 2
Powered Industrial Vehicle Management System                                NO-AR-09-010
 at the Washington Network Distribution Center


During our audit, management licensed 16 of the 18 unlicensed equipment operators,
implemented a vehicle safety checklist, conducted an inventory of vehicles and PIVMS
replacement parts, and disposed of non-functioning batteries. At our exit conference on
July 16, 2009, Washington NDC management committed to improving internal controls.

We recommend the Manager, Network Distribution Operations, Washington Network
Distribution Center:

2. Improve internal controls over vehicle equipment as well as safety and security by
   ensuring that OSHA checklists are completed as required, equipment operator
   vehicle licenses are current, and vehicles and batteries are adequately maintained.

Management’s Comments

Management generally agreed with the recommendations and has taken steps to
improve supervision and internal controls over vehicle equipment. Management also
plans to request the reinstallation of the PIVMS at the Washington NDC. See Appendix
C for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations in the report. We appreciate the
cooperation and courtesies provided by your staff. If you have any questions or need
additional information, please contact James L. Ballard, Director, Network Processing,
or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations


cc: Patrick R. Donahoe
    Steven J. Forte
    Jordan M. Small
    Frank Neri
    Theresa Gibbs
    Bill Harris




                                                 3
Powered Industrial Vehicle Management System                               NO-AR-09-010
 at the Washington Network Distribution Center


                        APPENDIX A: ADDITIONAL INFORMATION
BACKGROUND

The Washington NDC is located in the Capitol District in the Capital Metro Area. The
map below shows the Capital Metro Area Districts by three-digit ZIP Code.




The Washington NDC processed over 46 million first handling pieces (FHP) and used
994,139 workhours in FY 2008. The Postal Service owns the facility, which houses
both the Washington NDC and the Southern Maryland P&DC. The Washington
NDC/Southern Maryland P&DC implemented the PIVMS in July 2006 at a projected
cost of $804,817. The Postal Service justified the purchase stating it would:

    •   Eliminate unauthorized use of PIVs.

    •   Reduce injuries from unsafe operation of PIVs.

    •   Reduce damage to mail and equipment from unsafe operation of PIVs.

    •   Reduce workhours used to transport mail and equipment throughout the plant.

    •   Reduce the number of pieces of equipment needed to perform this work.

    •   Reduce the workhours needed to maintain the fleet of PIVs.




                                                 4
Powered Industrial Vehicle Management System                                   NO-AR-09-010
 at the Washington Network Distribution Center


This implementation was part of a national contract the Postal Service awarded to I.D.
Systems, Inc. of Hackensack, N.J., in January 2005 to produce and deploy the PIVMS.
The Postal Service started the program as a pilot when it signed a $3.6 million contract
with I.D. Systems to implement a wireless asset management system at 10 bulk mailing
and distribution facilities across the country. As of March 2009, the Postal Service
placed orders for PIVMS deployment in 113 facilities. The total amount funded for the
PIVMS as of May 2008 was over $35 million.

The Postal Service intended the PIVMS to provide automated measurement, control,
and compliance reporting of PIV operations within a plant, resulting in optimal PIV
safety conditions, operations, supervision, and associated savings. Some of the major
system design features included:

    •   Ability to conduct two-way text messaging.

    •   Assurance of OSHA safety compliance by only allowing currently certified
        operators to log on and operate specified equipment.

    •   An increase in safety and accountability allowed by shutting down vehicles after
        recording significant impacts.

    •   Ability to measure the amount of time that an operator is logged into a vehicle
        and the amount of time the vehicle is in motion.

    •   Ability to locate and track vehicles within a plant.

OBJECTIVES, SCOPE, AND METHODOLOGY

Our objectives were to determine if the PIVMS was functioning as intended and
producing efficiency improvements. To accomplish these objectives, we observed mail
processing operations and analyzed volume and workhour trends at the Washington
NDC. We benchmarked the Washington NDC with the other 20 NDCs, all of which
have the PIVMS. We also evaluated the utilization and capacity, staffing levels, and
inventory of powered equipment at the Washington NDC.

To conduct this audit, we relied on computer-processed data maintained by Postal
Service corporate reporting tools, which included the Management Operating Data
System (MODS), Electronic Maintenance Reporting System, Web Enterprise
Information System, Web-based Complement Information System, Enhanced PIV
System, and the Enterprise Data Warehouse portal. We did not test the validity of
controls over these systems. However, we checked the accuracy of the data by
confirming our analysis and results with Postal Service Managers and from different
data sources




                                                 5
Powered Industrial Vehicle Management System                                       NO-AR-09-010
 at the Washington Network Distribution Center


We conducted this performance audit from May through August 2009 in accordance
with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We
believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We discussed our observations and
conclusions with management officials on July 16, 2009, and included their comments
where appropriate.

PRIOR AUDIT COVERAGE

We have conducted four prior audits. The majority of the sites we audited did not
always use the PIVMS as intended and consequently did not fully realize efficiency
improvements. Management agreed with our recommendations.

                                         Report                             Monetary
                Report Title             Number       Final Report Date      Impact
         Powered Industrial
         Vehicle Management
                                                                           $3,345,456
         System at the Raleigh       NO-AR-08-007     September 15, 2008
         Processing and
         Distribution Center
         Powered Industrial
         Vehicle Management
         System at the               NO-AR-08-010     September 23, 2008   $1,576,086
         Providence Processing
         and Distribution Center
         Powered Industrial
         Vehicle Management
         System at the Louisville    NO-AR-09-001     December 3, 2008     $1,981,643
         Processing and
         Distribution Center
         Powered Industrial
         Vehicle Management
         System at the Oakland       NO-AR-09-007        July 23, 2009     $14,598,866
         Processing and
         Distribution Center




                                                  6
Powered Industrial Vehicle Management System                               NO-AR-09-010
 at the Washington Network Distribution Center


                                 APPENDIX B: DETAILED ANALYSIS

Damage to the PIVMS at the Washington NDC

The Washington NDC/Southern Maryland P&DC, which share the same facility,
installed the PIVMS in July of 2006. Management stated that the damage to the system
began several months after installation. The VAC device was either disconnected or
completely removed on the majority of the powered vehicle inventory.3

Management stated they believed employees deliberately sabotaged the PIVMS
equipment because they did not want to be monitored. Management can use the
PIVMS, which tracks vehicle location and utilization, as a tool to monitor employee
activity. In addition, management stated that employees were frustrated because,
initially, there were problems logging onto the system using PIVMS badges. Eventually,
the VACs were disconnected so that employees could bypass the PIVMS and start the
vehicle. See Illustrations 1.




    Illustration 1: VAC disconnected

In addition, there was damage to the PIVMS sensors used to detect motion and
measure travel time while pulling or carrying a load. See Illustration 2.




3
    Postal Service Engineering values each VAC at over $1,500.



                                                          7
Powered Industrial Vehicle Management System                                                            NO-AR-09-010
 at the Washington Network Distribution Center




            Illustration 2: Damaged travel with load sensor 4

When management installed the PIVMS in July of 2006, the replacement parts were
never secured and put into inventory. Instead, the replacement parts were left on the
workroom floor. See Illustrations 3 and 4. During our audit, management secured
these replacement parts.




4
    The PIVMS uses sensors to detect motion and measure travel time while pulling or carrying a load.



                                                           8
Powered Industrial Vehicle Management System                                           NO-AR-09-010
 at the Washington Network Distribution Center




        Illustration 3: PIVMS replacement parts left over from the July 2006 installation were
        stored in a cage on the workroom floor and not organized or inventoried.




       Illustration 4: PIVMS replacement parts remained unsecured on the workroom floor,
       June 2, 2009.



                                                 9
Powered Industrial Vehicle Management System                                           NO-AR-09-010
 at the Washington Network Distribution Center


We also found extensive damage to the building from powered vehicle accidents. See
Illustrations 5 through 8.




         Illustration 5: Severe damage to a supporting column caused by a vehicle impact.




        Illustration 6: Damage to an overhead look out gallery caused by a forklift with
        the mast raised.




                                                 10
Powered Industrial Vehicle Management System                                       NO-AR-09-010
 at the Washington Network Distribution Center




    Illustration 7: Damage to a building from a vehicle impact.




    Illustration 8: A safety post with bolts sheared off from impact from a PIV.

Since the PIVMS was not functional, supervisors could not use it to identify employees
who were involved in vehicle accidents and had no other method in place to assign
accountability. Although management was unable to identify the employees who
caused the damage to the PIVMS and to the facility, management took steps to prevent
further damage. When the Washington NDC manager arrived in 2007, he contacted
OIG investigators for assistance and employees were notified that damage to
equipment would not be tolerated.




                                                 11
Powered Industrial Vehicle Management System                                           NO-AR-09-010
 at the Washington Network Distribution Center


Other Matters – Powered Vehicle Equipment Internal Controls

Volume and Workhour Trends

To management’s credit, they reduced workhours in tow and forklift operations without
the use of the PIVMS. We reviewed mail volume, workhours, productivity, and
complement trends for the Washington NDC from FYs 2006 through 2008. From FYs
2006 through 2008, FHP volume at the Washington NDC decreased by 19.9 percent
and mail processing (Function 1) workhours decreased by 19.6 percent. Consequently,
overall mail processing productivity decreased by .4 percent.

From FYs 2006 through 2008, workhours used in tow and forklift operations at the
Washington NDC decreased by 10.1 percent and overtime used in these operations
decreased by 53.3 percent. In FY 2008, the Washington NDC used 23 percent of mail
processing workhours for tow and forklift operations. The number of equipment
operators in FY 2008 decreased by 16.9 percent compared to FY 2006.

We reviewed volume, workhour, and productivity trends for the other 20 NDCs from FYs
2006 through 2008. During this period, volume at these sites declined by 20.1 percent
and mail processing (Function 1) workhours decreased by 11.9 percent. Consequently,
productivity decreased by 9.2 percent. In FY 2008, the other 20 NDCs used an average
of 18.7 percent of mail processing workhours for tow and forklift operations.

Comparing the Washington NDC to these sites from FYs 2006 through 2008 shows that
Washington NDC tow and forklift workhours decreased by 10.1 percent, while the
average site decreased workhours in these operations by 8.1 percent. From FYs 2006
to 2008, Washington NDC tow and forklift workhours decreased by 10.1 percent.5
See Charts 1 and 2.




5
    Source of the data used in Charts 1 through 4 was the Enterprise Data Warehouse.



                                                         12
Powered Industrial Vehicle Management System                                        NO-AR-09-010
 at the Washington Network Distribution Center


             Chart 1: Tow and Forklift Workhours at the Washington NDC
                                     FYs 2006 through 2008




                 Chart 2: NDC Tow and Forklifts Workhours (excluding
                       Washington NDC) FYs 2006 through 2008




              From FYs 2006 to 2008, tow and forklift workhours decreased by 8.1.
              percent at the other 20 NDCs.

We noted that during FY 2009, workhours and overtime used in tow and forklift
operations continued to decrease in the Washington NDC. For example, they used .1
percent fewer workhours and almost 61.7 percent less overtime in these operations in
April 2009 compared to April 2008. See Charts 3 and 4.




                                                 13
Powered Industrial Vehicle Management System                                     NO-AR-09-010
 at the Washington Network Distribution Center


                 Chart 3: Washington NDC Tow and Forklift Workhours
                          FY to date April 2008 and April 2009




                       Chart 4: Washington NDC Tow and Forklift Overtime
                               FY to date April 2008 and April 2009




The President’s Commission on the U.S. Postal Service, July 31, 2003, recommends
that the mission of the Postal Service be “. . . . to provide high-quality, essential postal
services to all persons and communities by the most cost-effective and efficient means
possible at affordable and, where appropriate, uniform rates.” Title 39 U.S.C. Part 1,
Chapter 4, § 403, states “The Postal Service shall plan, develop, promote, and provide
adequate and efficient postal services at fair and reasonable rates and fees.”




                                                 14
Powered Industrial Vehicle Management System                                         NO-AR-09-010
 at the Washington Network Distribution Center


The Postal Accountability Enhancement Act of December 2006, P.L. 109-435, Title II
dated December 20, 2006, indicates “. . . the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

Powered Vehicle Equipment Internal Controls

Internal controls over vehicle safety, security and inventory were not in place because
management did not implement compensating internal controls when the PIVMS was
no longer functioning. Specifically:

    •   Equipment operators did not complete the OSHA checklist before starting a
        vehicle. The OSHA standard for powered industrial truck training [29 CFR
        1910.178(l)] requires that an employer provide training to truck operators on a
        variety of topics and states that “Daily, pre-shift inspection of powered industrial
        trucks is required by OSHA standards.” Supervisors stated that they believed in
        many cases that the vehicles would not pass a safety inspection. For example,
        since warning horns did not work on some vehicles, management issued
        equipment operators whistles instead. See Illustration 9.




        Illustration 9: The warning horn on vehicle did not work because the wire had been cut.




                                                 15
Powered Industrial Vehicle Management System                                  NO-AR-09-010
 at the Washington Network Distribution Center


        In addition, safety belts had been cut and removed from some vehicles. See
        Illustration 10.




         Illustration 10: Removed powered equipment seat belt

        During our audit, management implemented a vehicle safety checklist for
        employees to use before starting a vehicle.

    •   Access to vehicles was not controlled and not all equipment operators had valid
        licenses. We found 18 of the 124 equipment operators (14.52 percent), were not
        licensed. During our audit, management recertified 16 of the equipment
        operators and planned to recertify the remaining two when they returned from
        extended leave.

    •   Management could not always identify employees involved in vehicle accidents.

The Strategic Transformation Plan 2006 to 2010 states: “Perhaps the greatest
investment the Postal Service can make for employees is maintaining a safe work
environment — making sure they return home to their families each day the same way
they came in to work.” In addition, the plan states, “The Postal Service is subject to the
reporting requirements of the Occupational Safety and Health Administration and
follows the required criteria and reporting methodology. Providing a safe workplace is a
demonstration of the commitment the Postal Service has to its employees.”




                                                 16
Powered Industrial Vehicle Management System                                     NO-AR-09-010
 at the Washington Network Distribution Center


If the PIVMS were functioning, it would assist management in improving controls over
safety and security. For example, the PIVMS:

    •   Allows only current certified operators to logon and operate specified equipment.

    •   Requires the operator to complete an electronic OSHA checklist within a
        prescribed time after logging on to the vehicle.

    •   Does not allow the vehicle to be restarted after a collision and identifies the
        operator through the PIVMS log-on procedures.

Controls over vehicle and battery maintenance also needed improvement. For
example:

    •   Management did not have a system in place to monitor battery usage. Industrial
        batteries provide a maximum return on investment when they are discharged to
        appropriate levels during operation and allowed to recharge and cool down for
        enough time during their charge cycles. At the Washington NDC, there were not
        always sufficiently charged batteries for the vehicle inventory and they were
        routinely put into vehicles before being completely charged. Using a battery that
        is not completely charged reduces battery life. See Illustrations 11 and 12.




                                                 17
Powered Industrial Vehicle Management System                                         NO-AR-09-010
 at the Washington Network Distribution Center




                 Illustration 11. Batteries labeled with tags were not functioning
                 properly.




                                                 18
Powered Industrial Vehicle Management System                                   NO-AR-09-010
 at the Washington Network Distribution Center




                    Illustration 12. Example of tag on a battery. It says
                    “Full charge lasted 1 hour.”

    •   Since the PIVMS was not functioning, vehicle batteries did not include battery
        fobs. The PIVMS battery fob assists management in keeping track of the
        batteries. The VAC reads the battery fob identification code and sends
        information on the battery to the central computer server. See illustration 13.




                                                  19
Powered Industrial Vehicle Management System                                     NO-AR-09-010
 at the Washington Network Distribution Center




            Illustration 13: Box of battery fobs never installed on batteries.

    •   We also found potentially unsafe non-functioning batteries on the workroom floor.
         See Illustration 14. During our audit management disposed of these batteries.
                                                   •




            Illustration 14: Potentially unsafe non-functioning batteries




                                                  20
Powered Industrial Vehicle Management System                                           NO-AR-09-010
 at the Washington Network Distribution Center



    •   Vehicles at the Washington NDC were not adequately maintained. For example,
        15 of the 55 vehicles were out of service. See Illustration 15.




          Illustration 15: Tags on vehicles indicates they were awaiting maintenance
          on June 2, 2009.

If the PIVMS was functioning as intended it would assist management in improving
controls over batteries and vehicles. For example:

    •   The PIVMS Battery/Charger Administration module extends vehicle battery life
        and reduces battery inventory. I.D. Systems’ Fleet Management System notifies
        the operator when the battery has been sufficiently discharged and can be
        replaced.

    •   The PIVMS maintenance tool provides the ability to forecast, schedule, and
        process preventative maintenance events. By using this tool, management could
        more effectively manage preventive maintenance of vehicles.




                                                 21
Powered Industrial Vehicle Management System               NO-AR-09-010
 at the Washington Network Distribution Center


                       APPENDIX C: MANAGEMENT’S COMMENTS




                                                 22
Powered Industrial Vehicle Management System          NO-AR-09-010
 at the Washington Network Distribution Center




                                                 23
